t ■

* v.

)
K...

«r

NO.

2A

£
IN THE
iupfeme Court. u?

SUPREME COURT OF THE UNITED STATES

filed

AUG 1 0 4*021
gr TF Or TH~ c, PR *

ABEBAMEKONNEN, PRO SE, Petitioner
VS.
OTG MANAHMENT, LLC. Respondent

On Petition For Writ of Certiorari To The United
States Court of Appeals For The First Circuit

BRIEF IN SUPPORT OF PETITION FOR WRIT CERTIORARI

V

ABEBAMEKONNEN
106 West Concord St. Apt. No.l
Boston, MA. 02118
Cell- 617-938-7632 -off
Msg. 857-318-9697
Msg. 617-938-9910
011251911253598 Ethiopia V
c/o E-mail: begashawayele(g

AUG 2 k 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

13

QUESTION PRESENTED.
1. Whether employers can

terminate employees by a Mystery Shopper Report

in the context of Employment Laws. 1
2. Whether employer ean terminate my employment by reason of “three failing
Mystery Shopper Score” allegedly per the Employee

Manual which the manual has NO

am” that I received on 8/4/2007.2
h
provision
about
“Mystery
Shopper's
Progr
sue
-3_Mrether.it was legal by the employer to attach my August 4,2007 signature and
-~vMci on, about Mystery

Shopper Program.3

4. Whether the new Employees' Manual can be the ground for termi

nating
employees especially when the very word/clause of the program itself indicated that the
program is only for “performance training” by awarding employees from $50

-100 for

those who score from 85%-100% but give more training “again” for those who

score

below 70%.
5. Whether the district court and the court of appeals for the first circuit were not
erred in violating the Ledbetter Fair Pay Act of Jan.

2, 2009 by dismissing the plaintiffs

Title VII claims, the and Massachusetts Wage and Hour law, the Disability
discrimination claims, Age and Gender based discrimination claims all involved
compensation. 5

l

6. Whether it was not more than abuse of discretion by the district judge not only
denying discovery right of my own Time Card and Payroll Record from employer
despite motioning and re-motioning several times for reconsideration.6
7. Whether the district court has power to change the party's Theory of Argument?.
In other word when I allege disparate treatment (regardless color, national origin etc.)
the judge compared me with disabled people he created in mind but I did not alleged the
disparte treatment on ground of disability
8. Whether the district judge has not misuse the Vexatious Litigant Statute by
improperly using it as a tool to adversely decide against my case rather than follow what
remedial prescription (bond, pre-filing fee ...etc) as stated in the law.

2

t

V

TABLE OF CONTENTS
GENERAL APPENDIX INDEX

1

QUESTION PRESENTED

1

OPINIONS BELOW

6

JURISDICTIONAL STATEMENT

7

CONSTITUTIONAL AND STATUTORY PROVISION INVOLVED

8

INTRODUCTORY STATMENT OF THE FACTS AND THE CASE

4

STATEMENT OF THE CASE

5

REASON FOR GRANTING THE WRIT

8

SUMMARY OF ARGUMENT

20

ARGUMENT

22

A. Respondent OTG Management, LLC. Could not Have Prevailed
In its defense Against Plaintiffs Termination and other Claims Had
The District Court NOT Overlooked Plaintiff s Exhibits ............. ,232
23

(i) OTG, LLC.'s Employee Manual

28

(ii) Affidavit of Dawit Gurara
(iii) Petitioner's Other Exhibits

25
26

B. The District Court's Dismissal of The Petitioner's Disability
Claims and the Appeals Court's blanket Affirmance of the same is
Erroneous .................................................................................

28

C Che District Court's Dismissal of the Complaint on Religious Discrim-ination and The Appeals Court's Affirmance Was Erroneous............

30

D

The District Court's Dismissal of The Petitioner's Gender Discrimination .
Claim and the Appeals Court's Affirmance was Erroneous.......................

(i)

34.

E. The District Court's Dismissal of The Petitioner's Age Discrimination
Claim and The Court of Appel's Affirmance Was Erroneous .........
F. The District Court's Dismissal of Petitioner's Mass. Blue Law Discrimin. a tion and the Appeals Court's Affirmance was Erroneous....................

35

38

\

G. The District Court Improperly used the Vexations Litigant statute As a
Weapon of Personal Attack, Character Fascination and Dismissal of
The Complaint...................................................................................

17

REASONS FOR GRANTING THE WRIT

8

CONCLUSION

41

(ii)

'I

TABLE OF AUTHORITIES

v.

Ledbetter v. Goodyear Tire and Rubb
550 US 618 (2007) or 127 S. Ct. 2162 (2007)

9

McKenzie v. Potterzie, CIV. A.02-10727-DPW, 2004
WL 2004)1932766 (D. Maass.) ..................................

10

Laveme Gentry v. Jackson State University,
610 F. Supp. 2d. 564 (2009).............................

10

State University of New York at Sttony Brook,
596. F. Supp. 2d. 643, 651 (EDNY 2009)........

10

Bush v. Orange County Correction
597 F. Supp. 2d. 1293, 1295 (MD. Fla. 2009

10

Burlington Northern & Santa Fe Railway Co. vs. Sheila White
548 U.S. 53 (2006)....................................................................

x

Vuone v. New York Life Insurance Co. Inc.
No. 03-civ. 1076 (TPG, 2009 WL.............................................

10

Federal Statute
Title VII of the Civil Right Act of 1964, 42 U. S. C. 2000et. Seq

7

American with Disability Act, 42 U.S.C.12111 et. Seq...............

8

The Fair Pay Act of January 29, 1990 .........................................

x

State Statute
Mass. General Laws eh. 15 IB et. Seq

7

MGL. c.136 sec. (6)(50).....................

7
State Case

Commonwealth v. Northern Telecom. Inc. et. al. 25 Mass
x

App. cT.. 225 1987/1988
(iii)

INTRODUCTORY STATEMENT OF FACTS AND THE CASE
Statement of the Facts
Because the Rule Book of the Supreme Court doesn't show me whether a
Statement ofFact to be included (similar to the lower courts' policy), I was forced to
compile every possible documents that the parties exchanged (or have filed with court)
and submit it herewith to support my petition with a hope that, from this bulky
documents, the court will see and determine whether my petition has merit or is
frivolous. I put the documents in a separate category such as A, B, C and D because I
was unable to put all together as one volume as the documents are large to bind together
as one. Above all, I submitted all possible documents because I sincerely believed that
the Court of Appeals may not send the entire copy of the record to this court in the event
this court granted this petition and order the lower court to send. I have seen similar
scenario in the district court where some records was not sent from the district court to
the court of appeals but at a later time and after Begashaw on my behalf ask “why?” and
the clerk answered some reason. Therefore, please accept all documents accompanied
this brief for petition and review the case de novo as the court of appeals (without proof)
claimed that it had reviewed the case de novo. Pis. Note:- Because this is extraordinary
claim by petitioner, I must put extraordinary answer to my assertion at the outset. The
district court never cite the mystery shoppers' program statement found at the Employee
Manual but may have read the individual mystery shopper's performance evaluation as
defendant falsely asserted that they have a policy to terminate employees by mystery
shoppers report which it never did before but only the petitioner alone. Second, the

4

- district court and defense has not mentioned anywhere in their brief or the court's
Memorandum and Order about the affidavit of Dawit Gurara as indicated at APP. pg.
D130. The Affidavit is docketed as 177 and is indicated with the this brief at page B26.
Not only the district court avoided the Mystery Shoppers guideline as stated in the
Employee Manual (App. pg.32, 40, ^7) as it ignored the Affidavit of Mr. Gurara but also
never address why two employees were found sitting at work and had phone conversation
but tolerated while plaintiff/petitioner was punished for identical rule violation, see (the
two employees action at APP. pg. 184 and D188). Therefore, the court of appeals which
claimed that the district court has not overlooked any document is not true. Having said
that, I shall address the rest below.
STATEMENT OF THE CASE.
This case was originally filed with the Massachusetts Commission Against
Discrimination “MCAD” on Ma Sy 10, 20109 and the wage law claim was also filed
with the Massachusetts Attorney General Office and on May 25, 2010 the Mass, AG
office issued the right to bring a private lawsuit.10 ubsequently, petitioner filed the
complaint with the Massachusetts Suffolk county Superior Court on October 22,2012
but OTG removed to Federal Court on 11/23/2011.11 After the case was filed in Federal
Court, plaintiff amended the exiting complaint by adding the claim for Sunday Premium
pay as (count 5(2) and age discrimination as (count 6).12 Plaintiff also

9 Petitioner's Appendix D, page D195
'w_Petitionef's_Appendix-Drpage-D231

11 Petitioner's Appendix B, page B12, Dkt no.
•n-Petitioner'sv\ppendix-Brpage-B204-------

5

motioned the court to dismiss individual plaintiff, (because the manager was not
charged at the commission. After court dismiss the individual defendant and the two
counts claim, there were five counts left including disability discrimination, religious
discrimination, gender discrimination retaliation and retaliation Under title VII and the
retaliation Massachusetts Wage law claim. Defendant filed its summaiy judgment
against these claims on or about November 3,2016 and the court dismissed the
complaint and entered final judgment on July 25, 2019. 13 Plaintiff filed motion for
extension of time to file the notice of appeal but denied. 14 Within the time left to
appeal, petitioner, however, had filed and the case afterward transferred to the court of
appeals and docketed. After the case was docketed on 09/09/2019.1 filed t66he original
brief and Appellee responded with large size document causing Appellant to request the
appeals court to file enlarged reply brief but denied without prejudice.15 However, the
decision of the appeal court affirming the district judge's Memorandum and Order was
mailed to petitioner's address on March 25,20021, three days after the stated reason for
the denial of the motion to enlarge the reply brief was mailed. The decision, of the
appeal, however was not accessed nearly a month later by my daughter but not by me as
I was and still in Ethiopia. After this scenario by the appeal court, this petition was
followed.
OPINION BELOW
This case was before the U.S District Court (Judge Woodlock) case no. l:12-cv13
-M}.

14 Petitioner's Appendix, B, pg. no. B28, Dkt. No. 200/202
15 Petitioner's Appendix, page B8 Dkted on 07/01/2020

6

, 12183DPW. Some of the cases was dismissed before summary judgment and the rest
summary judgment on July 25, 2019. As the district court has not entered final judgment
on the claims dismissed befor summary judgment has been appealed to the United States
Court of Appeals for the First Circuit. For questinable scenarios the appeals court
affirmed the loweg courts decision without explanation and only with few line of
statements on March 23, 2021.This petition for review is presented at this time.
JURUSIDICTIONAL STATEMENT.
This court has jurisdiction to review this petition under 28 U.S.C c. 1254(1) which
the court had dismissed the plaintiffs various claims before and at the summary judgment
stage. The court of appeals for the first circuit had affirmed the district courts
memorandum and order only with 13 line of statements on March 23,2021. All the
claims except one small one in the Massachusetts Wage Law front dismissed include the
following: Disability Discrimination under Massachusetts General Laws (MGL) 15 IB
and/or Americans with Disability Act of 1990, 42 U.S.C. sec. 12101 et. Seq . (Count 1),
Religious discrimination under MGL- c. 15 IB et. Seq. and Title VII of the Civil Rights
Act of 1964, 42 U.S.C. s. 2000e et seq., (Count 2); Gender discrimination under MGL. c.
15 IB et. seq. and/or Title VII of the Civil Rights Act, 42 U.S.C. 2000e et.seq, as
amended, (Count 3); Retaliation under MGL c. 15 IB et. seq and/or Title VII of the Civl
Rights Act of 1964, 42 U.S.C, 2000e et. seq, as amended; (Count 4); The Massachusetts
Blue Law MGL c.136 sec. (Count 5(2) and age discrimination under Title 20 U.S.C. Sec.
623. (Count 6); The court of Appeals has not stated reasons for affirming each claims and

7

it is generally believed (the 13 line statements by the court prove it has not reviewed de
novo.
CONSTITUTIONAL AND STATUTORY PROVISION INVOLVED..
This case involve State and Federal statutes such as Mass. General Laws ch. 15 IB et.
Seq. for civil right issue and the Mass. Wage Laws as well as Title VII of the Civil
Right Act of 1964, 42 U. S. C. 2000et, Seq. as amended. The petitioner's complaint also
involve the American with Disability Act, 42 U.S.C.12111 et. Seq. The rest is the Fair
Pay Act of January 29, 1990 which this court should review retroactively many of
Petitioner's claims that relate to the compensation issues such as Sunday Premium Pay as
per MGL. c.136 sec. (6)(50)

that I should have been paid but employer refused and the

district court dismiss my claims by reason of statute of limitation where there is no time
limitation under the FPA.
REASON FOR GRANTING THE WRIT
This petition should be granted for review for the following reasons. As
Petitioner detailed each reasons, many of the reasons discussed in this part for the writ
are related to the writing of the Summary of argument and the argument. Therefore
please constru any issue discessued here as supplemental to the summary argument and
argument because the summary of argument and argument will be written in the shortest
possible way due to page limitation. If the writing of this document exceed a little more
than 40 pages (which I am not sure for how much) I respectfully request the court to

are as follows:
8

1. Conflicted decision between equally situated federal District courts.
2. Uniqueness of the Case
3. The Appellate court has not reviewed this case de novo.
4. District Court abuse his discretion in many ways including the following:
(i) Denied my discovery motion (My own Payroll and Time Card Record);
(ii) Forced me to be deposed using my adversary as an interpreter,
(iii) Remain silent when Defendant in its own right (not by motion)
disregard corrected deposition (the Errata Sheet) and use original16 and,
5.

The Court Improperly Used Politics to Dispose the Complaint:

I haveBrieflv explained below:

1. Conflicted Decisions Between the District Court and the Firs Circuit Court
of Appeals in one hand and many other Federal District courts on the other.
After the Fair Pay Act of January 29, 2009 had superseded the Ledbetter v.
Goodyear Tire and Rubber Co. Inc, case. 550 US 618 (2007) or 127 S. Ct. 2162 (2007)
the lower courts should not have dismissed this case and the court of appeals also should
not have affirmed such erroneous decision. Because “statute of limitation” was found as a
stumbling block by congress to the Civil Rights claimants who may have failed to assert a
timely claim with administrative agencies, congress passed the Fair Pay Act so any claim
involve compensation will not be barred by statute of limitation. The petitioner's
dismissed claim by the district court including the Massachusetts Wage and Hour claim
have been dismissed, (including the Sunday premium work the vacation and related claim
should not have been dismissed. Same should be true for termination of employment
because terminating employee by itself is is capital punishment at least in economic sense.

9

Petitioner's other benefit such as denial of transfer for a better work and wage is also one
of the many laims that involve compensation in which the court declined to dismiss is
found veme Gentry v. benefit such as denial of transfer for a better work and wage is also
one of the many claims that involve compensation in which the court declined to dismiss
is found veme Gentry v. Jackson State University. 610 F. Supp. 2d. 564 (2009)
(defendant's motion to dismiss the plaintiffs Title VII was denied because the professor
who was denied tenure in the teaching profession which affected her salary increase or
compensation) and, see also Vuong v. New As this court see from the Memorandum and
Order of the District court and also from defendant's argument, 90% of the complaint was
dismissed using this artificial barrier. Petitioner also will indicate in the argument section
that my age discrimination, denial of transfer are not only unreasonable but also the denial
of higher and better wage. SeeYork Life Insurance Co. Inc. No. 03-civ. 1076 TPG, 2009
WL (where the court found plaintiffs complaint four years before his EEOC charge was
timely under the Fair Pay Act) see also Rehman v. State University of New York at
Sttonv Brook. 596. F. Supp. 2d. 643, 651 (EDNY 2009) (where in a case involving
allegation that defendant refused to propose the plaintiff for appointment to associate or full
professor with tenure, com! held that although plaintiff filed his EEOC charge on april 13,2007,
under the Lilly Ledbetter law his wage discrimination claims based upon actions occuring on or
after April 13,2005, two years prior to his EEOC charge; were timely), Also see, Bush v.
Orange County Correction Dept. 597 F. Supp. 2d 1293,1295 (MD. Fla. 2009 (holding that

16 D's Memo ofLaw in Support of its Motion for Summary Judgment, at APP. pg. D8. fn. no. 5. This is
-where-theJawyer. took.the.law. into.his .own. hand,______________________________ : __________

10

- while plaintiffs complaint about demotion and pay reduction that occurred sixteen years before
EEOC charge was filed would plainly be barred under the Supreme Court's Ledbetter decision
with the passage of the Lilly Ledbetter Fair Pay Act, plaintiffs Title VII, however, were no
longer administratively barred)
2. The Uniqueness of the Case
Since the program of Mystery Shoppers was designed for comparative advantage
in the business environment, managers and supervisors also used it as a tool to terminate
their employees. This was a strategy by itself since supervisors do not like to deal with
every 'blame resisting' employees who do not want to be questioned on every
performance issues in the job and, therefore, managers and supervisors use the third
party's report as a means to terminate their employees. This is not the policy in many
company and that is why Mystery Shoppers opinion strongly suggest not to terminate
employees per such report as the reported enter the store and write a 5-10 minute report
to cause a 20 years employee. In fact, how the individual who has no supervisory control
of an employee cause the termination and yet you can not locate to demand his
testimony in trial or deposition.
The manager who received such report (no matter how false or unrealistic may
be) will use the report to tell his employee that such and such was reported against you
and therefore, you are “fired”. This is what happened to this petitioner after the fact. It
was after the fact because at first petitioner was not told that my job was terminated
because of mystery shoppers report. The reason for my termination was for having
phone conversation at the company's time and with a coworker on the other side of the

li

same store about business. (N.B:- That is why I never mentioned the Mystery Shopper
Report story in my administrative complaint). Mystery shopper policy may differ from
company to company and as OTG's “Employee Handbook” revealed, the shopper report
do not dictate employment termination, (whether the employee properly received such
mystery shopper program as part of employee Handbook) because such report is only for
evaluating business performance for comparative advantage with other companies and
not for termination. This is unusual and unique in the employment world and no mystery
shopper experts support such adverse action as the appended, non-authoritative four
separate experts' opinion indicated at App. pg. D166 -183. (Also please note that I
attached these articles as information only as there is no reported case law by courts
despite my effort in searching many times). As can be learned from many other
companies, terminating employees by a mystery shopper report is uncommon but OTG
Management, LLC. terminated my employment even where I have no contractual
agreement by the company's Employee Manual which have no mystery shopper
provision that I received on 8/4/2007 (APP. pg. 106-119). Employer alleged my
termination was per Employee Manual seen at (APP. pg. 32-53) which I have not
received the (amended?) document at all nor signed as an acknowledgment in receiving
it. The Mystery Shoppers clause found in this manual is only for training purpose not
terminating which the court never see what the manual states but use individual mystery
shoppers report and his own assumption.
The Appeals court affirmed the lower court's decision by stating as follows:
“.... After our careful de novo review of the whole record and
consideration of the arguments presented by the parties .... we

12

affirm, substantially on the reasoning of the district court's July
25, 2019 memorandum and order. We agree that the record
presents no genuine issue of triable fact as to any claim asserted
in the amended complaint. (emphasis added) see, App. Page B1.
This short statement that one writes in the name of three judges should be false
because the very shortness of the narrative explained itself that nothing was reviewed de
novo. In any court of the globe, no court on social justice and law, from the Hammurabi
times to the Greeks of Plato and Aristotle,) an appealed case should not be decided in
such a way because such statement does not indicate that the court had, indeed, saw the
complaining party's (or the opponent's) argument to reach at rational decision in favor of
one or against the other. In other word, without stated reason for a given cause of action
mentioned in the dispute (no matter how the reason explaining the decision is limited in
few page or pages,) the court should address each element of the claim and state the
rational reason why it affirmed the decision or overturned the same. Here the court did
not do that because the court has not reviewed the case de novo.17 The district court
who has not seen any page of the employee manual had based his decision only by

In fact, on March 16, 2021, from Ethiopia I called my former husband Begashaw in Boston
and asked him whether the court of Appeals had entered its judgment on the pending appeal of
this case. And Begashaw told me he will call me back once he got the answer from the court.
Begashaw called me on the third day, 3/19/2021 and told me that he had asked the clerks office
by phone and was told that the case will be presented to the three judges panel within the next
2-3 weeks and the decision may be made near to that time or a little later. When waitedfor that
time, and on March 23, 2021 the court entered its judgment on March 23, 2021 and on March
25, 2021 the decision mailed to my address but nobody was able to access the mail at home as I
was (and still am in Ethiopia). When my daughter returned from her temporary stay at her
uncle’s place of residency, a month or so later she found the mail and handed to Begashaw
where, as usual, Begashaw was attempted to help me further such as filing Motion for
rehearing. etc) but it was too late to file Motion for Rehearing and therefore I was forced

13

reviewing

individual mystery shoppers' report

that won'tpermit

management

to

terminate employees by mystery shopper report. If the court of appeals had seen the
Employee Manual it would have reached with a different opinion but it did not reviewed
and reversed the lower court's decision. As said, the lower court also ignored many
exhibits that support petitioner's position and no one will miss to find the judge did this
from the first page to the last page of the Memo, and Order. For example, he never
mentioned a co-worker (Ms. Tsega) who was sitting has not received written warning
(APP. pg. D184.pg. D184) nor mentioned another co-worker, Ms. Endale, who was on
cell phone conversation while working but like the petitioner, she was not fired (see
APP. pg. D188). Why the district judge purposely avoid these facts and declined to give
weight to the Affidavit of Mr. Gurara because the testimony could have discredited the
defendant's policy on transfer, employees' job description, his testimony that there are no
female utility workers allowed to work as the job is always filled by male employees. All
the above mentioned points were not addressed by the district judge, the court of appeals
untruly asserted that there is nothing that the district judge “overlooked” the plaintiffs
submission. In the face of these evidences, the district judge also stated:

“ ... That said, I have, as will be evident in the Memorandum, I read
Ms. Mekonnen's submissions Libra ... To that end I have
painstakingly sough to provide a reasoned explanation of my
resolution of evry alternative theory colorably presented by Ms.
Mekonnen in this litigation ” See Memo. & Order. APP. pg. B54. fn.
1 of last paragraph)
The district court who has not seen any page of the employee manual has based
his decision only by reviewing individual mystery shoppers' report only to dispose the

14

r

claim as if the employee manual permit my manager to terminate employees by
mystery shopper report. If the court of appeals had sen the Employeeemorandum and
Order. Rather, the court selectively ignored many exhibits that easily refute defendant's
position. For example, he never mentioned a co-worker (Ms. Tsega) who was sitting at
work but like the petitioner, has not received written warning (APP. pg. D184)D184) nor
mentioned another co-worker,Ms. Endale, who was on the phone conversation at work
but like petitioner, shewas not fired (see APP. pg. D188). The district judge not only
avoided petitioner's exhibit but ignored a-coworker's affidavit. For example, Mr.
Gurara who discredited the defendant's argument about transfer, employees' job
description, his testimony that there are no female utility workers allowed to work as the
job is always filled by male employees. Therefore, the court of appeals should not
assert that there is nothim that the district iudse “overlooked” the plaintiffs
submission. Had the appeals had seen it the manual it would have reached with a
different opinion but it did not reviewed and reversed the lower court's decision. As
said, no one will find the judge did this from the first page to the last page of the
The District court abuse his discretion in many Other ways.
The District Court abuse his discretion by (i) denying my several motion on
to advance this petition without motioning the appeals court for rehearing. The point is why the
court said it will take time to make the decision but sent the decision in days?? (NB:-March 20
and 21, 2021 are Saturday and Sunday and courts are closed). This suggest that the court of
appeals has not reviwed my appeal de novo. The other objective evidence will be shown that the
district court did not saw many exhibits including the Employee Manual, etc. In some situation,
there is indication where he saw the exhibit but did not grasp the substantive point that he
should have see but in vain, for example the Affidavit of Dawit Gurara was properly served on
defense counsel and it was filed with court and recorded as Docket No. 177, as seen at APP.
pg. B26

15

discovery(specially my own payroll record and Time Card), (ii) forced me to go to
deposition using my adversary for my Amharic (Ethiopian language) interpretation by
denying my Motion for Protective Order without reason, (iii) remain silent when
defendant informed the court on the summary judgment brief (not by Motion to strike)
that it will not use the corrected 18 deposition statement (on the errata sheet) had
substantive change and therefore, rely only on the original copy of the transcript alone,
and, (iv) Despite prior order by court to take my assistant's deposition (see APP. pg. B17
of docket no. 69 and notice of deposition already served to Begashaw Ayele (see APP. pg.
D202) the court ordered defendantnot to take the deposition and nobody knows but my belief is
the judge expected the affiant's testimony will strength my cause and the judge does not like it. It
is understandable. See the court's order at APPpg. B22, Dkt. no. 129. The court also barred my
assistant to help me as if he was not allowed before to translate my language on motion hearing,
See APP. B17, Dkt. No. .69.
5 The District Court Improperly Used Politics to Dispose the Complaint:
It is reasonable to believe the case before the judge at the district court was a
politically oriented complaint because Title VII by its very nature is a politically
motivated statutory law that congresses enact to eliminate unfair employment practice
including race, color, national origin... etc. However, Judge Woodlock used it for his
political advantage to punish myself and my assistant as the argument will demonstrate in
the paragraph below.

8 See, Defendant's Memorandum of Law in support of its Motion for Summary Judgment at
APP. ds. D8. ft. nt. no. 8..

16

-

a. The Vexatious Litigant Issue used As His Weapon of Attack
This is the civil complaint plaintiff filed against my former employer and not the

lawsuit my former husband, BegashawAyele brought against my former employer.
Begashaw may have 2,3, 4....5 or 100 lawsuit against his former employers two decades
ago and before we were married. He, the [the judge] related Begashaw's old court history
to my current case and called us together “vexatious litigants”. See App. B52-54. The
district judge listed all the lawsuit Begashaw had filed in the past and stated what the
outcome was. Although Begashaw lost some of the cases, settled others and prevailed on
the rest, the court deliberately stated facts to the contrary and characterized one of the
cases that Begashaw won as a “lost” cause. For example, in the Begashaw Avele v. G2
Secure Staff, LLC. l-17-cv-10417RGS. Begashaw was a prevailing Party. Moreover, the
judge had the record of the case within his reach as this was a court record and need not
to write untrue statement simply because he wanted to show that Begashaw is/was a
vexatious litigant without realizing that his effort in discouraging victims of
discrimination (whether racial or other) is what encourging us thus make no distingisio
between discriminating companies and judges who are guarding corporate interest at the
expense of victims. As said, despite of the court's barring of Begashaw from assisting me,
judge Woodlock never stated any reason why Begashaw can not help me as long as he has not
acted like a lawyer (write my case and sign, appear in court and debated against opposing
counsel. . . etc. As this case is our common cause (because the termination of my employment
and the lawsuit was occurred two years before our divorce), the judge has no reason to bar him
from helping me either writing my paper or advising me on procedural matter. In fact, what he
advised me to refuse to be deposed by defendant's unilaterally scheduled deposition was

17

due to the death of familymember and complicated birth issue of my daughter's
hospitalization at Mass. Gen. Hospital. However, the deposition finally was completed
after my problems on family matter and also after defendant's motion to compel was
heard. The district court was wrong to relate the unrelated lawsuit history of my former
husband and my refusal to appear for deposition was correct.

By relating Begashaw's

case to my case, the judge had violated the Vexatious Litigant statute since the law can
not be used as a weapon to adversely decide complaint once the complaint was filed but
to set some pre-filing conditions such as bond or advance notice before the lawsuit was
filed. In

Ayele v. U.S. Security Associates, inc. Case No. 1:1:05-CV-11273-WGY (D. Mass.

Oct. 5, 2005) Judge Young simply informed him [Begashaw] that “any future lawsuit should
first be drawn to the iudse's attention (before docketed) and that is all.
He further stated:
“Moreover, Mr. Ayele's experience in this court is not limited to
employment discrimination suits, he has also pursued other related
categories of claims., citing Ayele v. G2 Secure Staff, LLC. Case
No. 1:17cv-10417-RGS (D. Mass., May 5, 2017). Mr. Ayele sought
to vacate or modify an arbitration award entered in favor of his
former employer pursuant to the employment agreement and the
National Labor Relations Act (NLRA), 19 See, APP. vs. 54. fl:
(emphasis
The district judge got the information wrong because my former husband neither
filed the Arbitration claim under the National Labor Relation Act nor the arbitration
award was entered in favor of the employer. Rather the plaintiffs original claim was
under Title VII but the arbitrator changed it to the NRLA claim to avoid punitive and
compensatory damage award available under Title VII. Plaintiff was the prevailing party,

18

- however. So why the judge misstated facts unless he try to picture everything in a
negative picture.
(b) The court's allegation protracting the case for long Time.
In his introductory part of the Memorandum and Order of July 25, 2019, the judge
started his analysis by openly revealing bias against myself, the plaintiff-petitioner and
my former husband, Begashaw Ayele. In ruling on Defendant's Motion for Summary
Judgment at the very first page and first paragraph, Judge Woodlock stated the following:

“ Plaintiff Abeba Mekonnen has formally proceeded pro Se but also
has, at all stage in this litigation, been advised, mostly from behind the
scenes by her former husband, Begashaw Ayele. ...Though Mr. Ayele
is not an attorney, he
he has unsuccessfully sought to appear on
behalf of Ms. Mekonnen and has involved himself in the proceeding
as an officious intermeddler and 'his participation has interfered with
the effective and orderly prosecution of the dispute' to such extent that, during
a hearing on September 23, 2014,1 barred Mr. Ayele from purporting to act
further on behalf ofMs. Mekonnen.(emphasis added) ” -paraphrased) See,
Memo and Order of July 25, 2019 which the court, cited Dkt Nos. 90
and 92. or See also APP. pg. B54,\ 3.
The above statement is true ONLY as to the barring of my Assistant and former
husband, Begashaw Ayele if “barring” means not to talk in court as an interpreter or
appear in what he called “my court” (but we believe that court is America's court). The
statement about barring, however, has

problem because the court several times

recognized Begashaw as an interpreter of my/our Ethiopian Amharic language into
English as well as permitted Defendant to depose Begashaw, See, APP. pg. B17, Dkt.
No. 69.

until again the judge ordered

Defendant not to take the deposition of

Begashaw, See APP. pg B22,Ukt. no. 129. WeEHieved'the judge's swift change of order

19

was because he anticipated Begashaw's answer to the deposition will strength my case.
This is evidenced in other discovery matter because the court (probably this judge and his
court only) are unique from other courts by denying “employee's” own Payroll Record
and Time Card. Insult to injury, as they say, the judge declared his bias from the start and
has continued to the summary judgment as follows :
Mr. Ayele and his tactics are not unknown to the various
members of this court and at least one of my colleagues
indicated well before this litigation was filed that Mr. Ayele
should be treated as a potentially vexatious litigant, (citing
Ayele v. U.S. Security Associates, inc. Case No. 1:1:05-CV11273-WGY (D. Mass. Oct. 5, 2005). ” ... I have similarly
found in this proceeding a lack of candor and an indifference to
procedural rules by both Ms. Mekonnen and Mr. Ayele. emphasis added); See Memorandum and Order ofJuly 25. 2019
fromAPP. pe. B29 -B57 specifically at APP. ds. B52, and B54
at f4. and under sub-title “Appendix. ”
All the above blames by the judge does not indicate what specific offense I or my
assistant exhibited except rightfully refused to appear for deposition for valid reason.
And that is that. Regardless, we agree to the day imposed by the court because at this
time, my daughter had safe baby boy delivery and the funereal of my cousin was
completed.
SUMMARY OF ARGUMENT.
The Petitioner's summary of argument are stated briefly as follows: Plaintiff/petitioner as
Cashier for OTG Management, LLC. was working from August 4,2007 to November 19,
2007 but terminated for having cell phone conversation with a coworker as the cash
register was not reading the bar coded price of a bottled water because the bar code was
scratch. I was terminated for said conversation but the co-worker Yoseph Temesgen was

20

* not terminated. See, copy of my original complaint with the Massachusetts Commission
Against Discrimination at APP. pg. D195. In responding to the charge filed with
Massachusetts Commission Against Discrimination “MCAD,” OTG Management, LLC.
submitted completely different reason for my termination. They alleged that I was
terminated for failure to pass the mystery Shoppers' Report on three different occasion,
( See, APP. pg. D54, 56 and 58). The common feature of the three mystery shoppers
report as as can be read therein include that I was talking on the cell phone while serving
customers, that I do not know the food items or ingredients, that I do not smile in
greeting customers. Although the Defendant's sole reason for my termination was for the
three mystery shoppers report, (a report by a third party company employee who report
their shopping experience and report to management and become part of the Employee
Manual for the company that hired me and all other employees.) I was also accused for
other reason including for sitting on an empty (plastic box) and another for alleged
“failure to check expired milk” in the cooler. Except sitting on the plastic box due to my
disability and due to employer's failure to accommodate the problem, ALL charges are
false and proved by a preponderance of the evidences. However, in the course of the
proceeding in the district court I and my assistant and my former husband, Begashaw
Ayele, have developed endless disagreement with the district judge, my case was
dismissed by suppressing my exhibit/evidence and by accepting false and fabricated
document from defendant and the court dismissed the complaint. The summary of the
entire case is therefore stated as follows:

21

ARGUMENT
Termination of employment by a third party report is the uncommon practice in all
area of employment and rarely done so by some employers. OTG Management was no
exception except it terminated petitioner for reason of hostile and discriminatory reason.
OTG managmen provided one and only one reason for terminating my employment and
this one reason has alleged violation of the company policy as prescribed in that policy
including the “Mystery Shopper Program” as indicated at APP. pg. 32-53 and the other
Employee Handbook as indicated at APP. pg. 106. 119. Employer has no right to
terminate based on the cited policy because, (1) the Employee Manual received upon my
hire on August 4, 2007 (APP. 106-1190 has NO provision about mystery shopper policy
and therefore, no employment contract exist on that police manual indicated at APP.
D106-119. (2) Employer also can not terminate my employment by the other (amended?)
Employee Manual as indicated at APP. pg. D32-53 because the manual despite its
provision about mystery shopper program can not be used for termination of employment
as the policy clearly indicate that the mystery Shopper program was only for training
purpose and to encourage employees by rewarding money from $50-100 for good
performers scoring 85%-100 but to give additional training “again” to those who scored
below 70%.(See APP. pg. D40, last paragraph under the title “Mystery Shopper
Program.” After discovery period ended and the settlement effort was proved
unproductive, Defendant filed its Motion to dismiss Under Rule 12(b)(6) and Summary
Judgment under Rule 56 of the federal Rule of Civ. Procedure. Defendant argued that all
cause of actions stated by plaintiffs “Amended Complaint and Jury Trial” (APP. pg.

22

< D204) namely Discrimination on disability under American with Disability Act (ADA)
and the MGL 15 IB, (Count One); Relmous Discrimination (Count 2); Gender
Discrimination (Count 3); Retaliation Under Title VII and or MGL 15 IB (Count 4);
Discrimination under Mass, Wage Law including (a) MGL ch.149 sec. $148 and (b)
MGL c.136 §6(50) (Count 5), (Age Discrimination under 20 U.S.C. § 623 (Count 6) as
well as the core cause of this litigation (Termination of Employment) is addressed here
below as follows:
A. Respondent OTG Management, LLC. Could not Have Prevailed In its
defense Against Plaintiffs Termination and other Claims Had The District
Court NOT Overlooked Plaintiffs Exhibits.
(i) OTG. LLC's Employee Manual.
The Plaintiff/Petitioner's termination of employment was grounded on one and only
one reason which is “Poor job Performance. 3 Below Averase Failing Secret Shopper
Scores ”, See. App. pg. D149. OTG Management LLC., also alleged that the termination
action was carried against the plaintiff per the Employee Manual it provided to the
plaintiff on the day of hire and orientation on August 4, 2007. See, also Declaration of
Michael Murphy, VP of Operation at App. pg. D21, §5 and §8; and see the actual manual
plaintiff received at App. pg. 106-119, See also such undisputed fact from Defendant OTG
Management, LLC's Memorandum of Law in support of Its Motion for summary
Judgment, at App. pg. Dl, 14 of section (ii), §2. The Employee Manual plaintiff received
and signed on August 4,2007, however, has no Mystery Shopper provision and therefore,
employer can not terminate my employment based on this document.

23

'it

Realizing that plaintiff was terminated by the Employee Manual which has no
provision about Mystery Shopper program and, notwithstanding the above and earlier
position, OTG Management established new employee manual and claimed that it had
provided to the plaintiff on September 19,2007. However, plaintiff have not received
such employee manual even though I received three page document titled “Equal
Employment Opportunity Policy and Policy Against Harrasment” See, App. pg. D224226 which I received and signed on 9/19/2007 ibid, at App.pg. D227. Please Note that at
the signature page of document page number D227 and at the very top with the title, it
indicate that the signature is for receiving this three page document, not the new
Employee Manual. Had I receieved the new or amended employee Manual, I should have
been required to sign on the blank space indicated at page 50 the new employee manual,
but has not signed. When I received the employee manual on August,2007,1 have signed
on an identical page as seen at App. pg. 106 - 119.
Defendant OTG Management, LLC. fraudulently used the signature I put for
receiving a non-mystery shoppers manual (D106-119) to the newly fabricated manual
with mystery shoppers provision (D32-53) and attempted to assert that plaintiff was
terminated for violating the company policy accordingly. PlaintiffTPetitioner never knew
such new document until after termination and on discovery phase in federal court
proceeding.
The new Employee Manual: - The newly presented Employee Manual (even provided to
plaintiff and received, this document will not be the ground for termination of
employment due to the very word of the provision. The document only states that the

24

- mystery shopper program was for training and performance evaluation with reward of
moneyfor employees who score from 85-100 % but also to provide to employees who
performed less than 70%. The manual nowhere suggest that employees to be terminated
for any substandard performance. See App. pg. D32, 40, % 7. The district court
purposely avoided to refer to this manual and only accept individual mystery shoppers
report indicated at App. pg. D54, D56 and D58 and concluded employer's action was
nondiscriminatory business decision. He was wrong.
(ii) Affidavit of Dawit Gurara
Mr. Gurara is /was my co-worker and he was not Cashier but a Merchendizer aka
Utility Worker whose job was to transport food items and soft drink from the cooler room
(warehouse) and distribute to each of OTG's sales counter one of which is my place
which I work as a Cashier. Although Mr. Gurara's workshift is overnight, he is the first
morning crew who bring merchandise and display in the cooler behind the counter of the
cash register. He knows how OTG operate its business as his affidavit indicated at APP.
pg. D130. Because Mr. Gurara's affidavit reveal several facts that defendant falsely
asserted, the district court lightly mentioned the existent of the document but have not
seriously review such vital document and Defense counsel never addressed it in any of
his writing. Because un-rebutted affidavit is deemed as admitted, the defendant's
argument on issues surrounding this affidavit should have been rejected.
Mr. Gurara's affidavit, taken together absolute contradiction to ORG's position,
as for example, when plaintiff claimed that soon after I was terminated, a male employee
was hired to replace my position but defendant falsely asserted four women were hired in

25

my place, see Mr. Murphy's Declaration, App. pg. D21, ]f22. However, Mr. Gurara's
affidavit reveal that the person hired to replace me was a male employee, called Mitku
Melkamu. See, Affidavit of Mr. Gurara at App. pg. D130, and see also Mr. Melkamu's
job evaluation by Mystery shoppers as he was working at plaintiffs former position as
indicated at App. pg. 104. Mr. Gurara's Affidavit also refute the Defendant's false
assertion claiming that OTG has nine female employees as a utility worker as the job can
be performed by male and female employees. See Murphy's Affidavit, ibid, at ^21.
However, OTG has never had female utility employees as I knew from my hire in
August 2007 to my termination in November 2009. Mr. Gurara reveal that only four male
employees are what he knew and no female employees work as a Utility/Merchendizer..
See Mr. Gurara's Affidavit at 130, 13116. The district judge never mentioned such
testimony to the effect of refuting defendant's false argument.
(iii) Plaintiffs other exhibits:
The other exhibit the court didn't pay attention is the letter my husband wrote to
Mr. Khayat complaining that employees work hour was reduced as employees required
to leave early.(see APP. pg. 145, page 2, top paragraph.) Because the judge did not
know this situation, the document I present proving that I have worked more than the
normal hours was termed / stated just some hours picked up withen the pay period. The
judge still in his wrong opinion because unless some situation compelled to stay and
work, I leave whenever my work hours ended, picking any available extra hour as
overtime was incorrect assumption, See the judge opinion in his memorandum of law at
APP. pg. B46 than 8 hrs as to prove that worked on Sundays should not be requiredto shou

26

»

the worked hrs. must be full 8 hrs per day.Judge Woodlock's argument/analysis is not correct.
See Memo. & Order at B46,
The Judge's Disparate Treatment Analysis.
See Memo, and Order, at App, pg. B43.
The disparate treatment claim was based on the differential treatment I, the
plaintiff, claimed against the company because that for same and identical rule violation,
OTG treated me less favorably than other equally situated employees. For example, a
Cashier and a co-worker called Alemtshay Tsega, was not written-up when she was found
sitting at workplace, See. APP. pg.D184 but I have received written warning (See App.
pg D60) for sitting due to my preexisting leg injury starting from Ethiopia, (See APP. pg.
D147). and (2) another similarly situated coworker and a Cashier called Ms. Endale was
not written-up when she was found talking by her cell while working, (See. APP. pg.
D188) but as I addressed my complaint to the state agency, I stated that I was terminated
for ce terminated for cell conversation with my other co-worker, Joseph Temesgen, (See,
APP. pg. D195). After termination, I was replaced by male employee called Meteku
Melkamu, (See App. pg.104) After charge of discrimination was filed with the
commission, I learned from the employer answering to the charge that the reason I was
terminated was for “poor job performance, 3 below average failing secret shopper
scores' See APP. pg. D149)
The more clear Disparate Treatment practice among its employees by OTG
Management is that the company wrote and suspend Mr. Gifaw as from EEOC's decision
at APP. pg.l 86 indicted. As can be seen, Mr. Gifaw received four different disciplinary

27

measures in which he signed ALL except one that led him to further confrontation. Mr
Gifaw was counseling by his manager, not fired but choose to throw his hat at his
manager and quit even the manager also said you are fired. To the contrary, as Judge
Woodlock noted, petitioner received only one warning letter which has the petitioner's
signature. The rest written warning I had and all of which I never know was recieverd
after I filed the charge and therefore, terminating one employee for one offense but
tolerating the other for four rule violation is cler violation and this court should see the
differential treatment.
The district judge knowing from my disparate Treatment claim that I was
differently treated under the employer policy but did not address the differential treatment
between myself and another two co-workers even though my emphasis about disparate
treatment claim was between myself and a male co-worker, Mr. Mulugeta Gifaw whose
job performance history is indicated by the exhibit Petitioner's exhibit at App. pg. D186.
B. The District Court's Dismissal of The Petitioner’s Disability Discrimi­
nation Claims and the Appeals Court's blanket Affirmance of the same is
erroneous.
The District Court improperly granted Defendant's Motion for Summary Judgment
on plaintiffs Disability discrimination by claiming that plaintiff has not provided (a)
Medical Record from Ethiopian Medical Board, (b) that the plaintiffs injury at work can
not constitute disability as if plaintiff had claimed disability for the work related injury
alone but for “impairment” due to injury in my knee and, (c) the court like the defendant
lad-mixed-the-two-type-of-claims-and.unablejto.distinguished/separate.the^mixed.elemenit
of the case “impairment” and the permanent injury, aka Osteoporosis. Contrary to the

28

„

defendant/court's claim, defense counsel had received the Ethiopian Medical record on
March 12, 2014. see APP. pg. D159, 160 at Respose No.4. dispite the false claim
advanced from to time.
The judge accepted the defendant's position by stating : “I will strike certain
exhibits not produced during discovery, specially Ms. Mekonnen's medical certificates
from Ethiopia and the three sets of cell phone record. Ms. Mekonnen herself admitted
she did not provide these exhibits to OTG during discovery despite being requested to
do so (emphasis added) ” See, Memo. And Order. APP. pg. B32. f4 This statement is
untrue in its core and the judge simply borrowed the word of defendant's attorney but the
Ethiopian Medical Certificate was produced to defendant two years before it filed its
motion for summary judgment. The Medical Certificate defendant requested from
plaintiff at discovery period on January 30, 20014, see, APP. pg. 151, ^{5. was produced
on March 12, 2014 as is seen at APP. pg.160, f4. Defense counsl, however filed his
motion and supported his motion by another motion to strike the Ethiopian Medical
certificate which the court accepted as true and strike this vital document. The judge was
misled by the exhibit defense counsel submitted to court after it deleted (redacted) the
portion of my answer to the requested document as seen at APP. pg. 157, from answer 14. See Affidavit of Sean P. O'Connor, APP. pg. 155-158. Therefore, the district court's
assertion stating “Ms. Mekonnen herselfadmitted she did not provide these exhibits to
OTG during discovery despite being requested to do so ” is untrue statement caused by
defens counsel's unethical and immoral deception in misleading the court. See, Memo.
And Order. APP. pg7~B32. <p~Tobe sure, Compare agaih_APP7pgri'607^4”(plaintiffJ

29

production) and at APP. pg 155, f 1-4) Defendant's deception. Also see further denial at
at APP. pg. 222 fn. 28. Question: if counsel has not received the document as he claimed
since March 3, 2014, (the day I produced the Ethiopian Medical Certificate) then why not
counsel ask plaintiff to supplement rather than raising issues 2 years later ?
In this connection I can not pass without mentioning that the district judge
misconstrued and misunderstood my earlier statement that I say I have not given the
Ethiopian medical Certificate to any U.S. health maintenance organization bpth because
it was from Ethiopia as well as it was also 18 yeard old document and can not be accessed
from Health maintence organization in the U.S hospitals.However,_7 never said nor had
any reason to say that I did not produce despite requested to do so by defendant. See,
Memo. And Order. APP. pg. B32. ^4.
The District Court's Dismissal of the Complaint on Religious
Discrimination and The Appeals Court's Affirmance Was Erroneous
The District Court improperly granted Defendant's Motion for Summary Judgment
on plaintiffs Religious discrimination by denying my own payroll record and time card to
prove that I was forced to work from employment to termination. The district judge and
the defendant agreed that the Plaintiffs religious discrimination was time barred for the
claim that was before July 14 statute of limitation. Furthermore, both asserted that
plaintiff has never worked a single Sunday after July 14,2009 but when refuted by
exhibit, the court side with OTG Managment, LLC. by reasoning that the six and seven
hrs. I worked (other than M-F work schedule) are not full time work (he meant 8 hrs.)
and, therefore, entered judgment against plaintiff. I think, the judge who denied

30

* employee's own payroll record and time card is an absolute abuser of his discretion which
the court of appeals has affirmed in a blanket statement.
As an initial matter this part of the claim was argued by defendant in uncontrollable
lie from the beginning. As repeatedly mentioned, defendant flatly denied that plaintiff has
never worked any single Sundays “from mv hire to termination (rephrased) (See,
Defendant's Memo, of Law in support of summary Judgment at App. pg. D11, last
paragraph to D12 of top paragraph. When plaintiff presented irrifutable exhibit indicating
that I was forced to work 20 Sundays, see exhibit APP. pg. D90-103 and D241-243,
About the exhibit presented, Defendant alleged that the time period covered by
these exhibits are time-barred and will not defeat the summary judgment sought earlier.
Despite defendant's unwillingness to produce the same type correct time card cited above
(D90-APP. pg. D90-103 and D241-243,) Defendnat did not cooperate and the court also
denied my repeated motion to compelling discovery as indicated on the docket sheet of
APP. pg. B16, Dkt. no.62, B18 Dkt 90, 95 as well as repeated oral request whenever
appear at court scheduled motion hearing. For this reason, I was compelled to find the
proof that I was forced on other Sundays after the july 14, 2009 statute of limitation
period. As calculated in Begashaw Ayele's Affidavi, pagel 1, C (a) discovered that for the
pay period ending September 6, 2009,1 was making $726. 84 which is more than 51.48
(normal biweekly income was $675, and $726.84 minus $675.00 = $51.48. Similarly, For
the pay period ending August 2, 2009, plaintiff also earned $736.47 which is also more
than the normal biweekly income of $675 the difference of which is (736.47-675.00 =

31

$61.47). Concerning these extra income above the expected biweekly income, the district
judge put his flawed (and even false) analysis as follows:
“ Neither [these extra income] suggests that Ms.Mekonnen
worked a complete extra shift. Instead, Ms. Mmekonnen
worked approximately an extra seven hours during the
August 2, 2009 pay period and an extra six hours during
the September 6, 2009 pay period” - See Memo & Order,
at APP. pg. B46,1T4
The above reasoning is more illogical and depraved as it was not supported by evidence.
In fact, the judge's subjective opinion run contrary to the record. The record

that the

judge may not have seen is the September 3, 2007 letter that Begashaw wrote on my
behalf to my manager Walid Khayat indicate why plaintiff did not work the whole shift.
That letter addressed certain complaint one of which was that many employees were told
to leave early which makes the weekly or biweekly total work hrs low. My letter reads:

“Thirdly, employees are repeatedly told
to leave early without explanation and
the supervisor misappropriated their
tips.”
See at APP. pg. D145. pg. 2.
top paragraph)

In addition, plaintiff had no practice to work 1-2 hrs extra hours in certain day or week
period as was speculated by the district judge but work full schedule as the following
chart demonstrated: The Source of the Chart is from Petitioner's large exhibits
particularly from APP. pg. D90-D103 through 103.

32

Chart indicating that Petitioner Abeba Mekonnen Worked
Full day shift Other than the Regular 40 Hours

DocumtID
Nos

Reg. Hrs
Worked

O/THrs.
. Daily

Work Day of the
Wk.

Total Hrs.
Remark if any

D-90

40

0.120

Sunday

8.11

D-91

39.609

0.0

Sunday

7.39

D-92

39.299

0.0

Sunday

8.03

D-93

38.420

0.0

Sunday

8.09

D-94

39.329

0.0

Sunday

7.55

D-95

40

15.08

Sunday

7.46

D-96

40

16.85

Sunday

10.05

D-97

40

13.039

Sunday

12.46

D-98

40

6.669

Sunday

7.53

D-99

40

7.669

Sunday

7.56

D-100

40

6.580

Sunday

8.11

D-101

40

6.459

Sunday

7.50

D-102

40

6.289

Sunday

7..50

D-103

40

7.929

Sunday

7.54

Please Note:- In his Memorandum and Order, at APP. pg. B46, the judge asserted that the extra 6 and
7 hrs. worked by plaintiff outside the M-F schedule can not prove that plaintiff worked on Sunday
morning. How this question could be asked when employer's schedule indicate that plaintiff was off on
weekends? See, Defendant's Exhibit at APP. pg. D62-D83.
Second, if the court believe that plaintiff had proved by direct evidence as to my forced Sundays work
as indicated from APP. pg. 90-103, why not he believed the same may happened in 2009 instead of by
speculating the extra incom for 6 and 7 hrs. work may not for the Sunday work.
Thirdly, if plaintiff was not forced to work on Sundays, the total income from January1, 2009 to my
termination would be only $15,525 ($9.00/hr. x7.5/day x 46 weeks). But the income reported in my W2
(2009) is $17,022.26. So where the extra $1497.26 comes from unless I was forced to worked on
Sundays.—Above-aH-why-the-court-below-reftised-mv-request-niV-pavrolLand time card similar to the
exhibit APP. pg. 90-103 instead of believing the fake and fabricated exhibit seen at APP. pg. D62-D83.

33

demonstrated: The Source of the Chart is from Petitioner's large exhibits particularly
from APP. pg. 90 103 through 103.

D The District Court's Dismissal of The Petitioner's Gender Discr­
imination Claim and the Appeals Court's Affirmance was Erroneous.
The district court also improperly dismissed the plaintiffs Gender Discrimination
claim by assuming and accepting defendant's position that (a) the termination issue based
on gender discrimination was time barred and, (2) that the transfer issue was also time
barred. The two cause of actions can not fail for untimely reason because (1) the transfer
issue was a discret act and also time barred raised to alleviate the disability problem
where the work environment was also pervaded by hostile environment. The hostile
environment tradation at OTG as well as the manager of the store himself is difficult to
work with as one employee, for example throw his hat and quit/terminated. See APP. pg.
DS186 (a case that was before the federal administrative agency EEOC, as previously
stated that I was prohabited not to have my lunch break one and ond and half befor my
shift ended, and had I been transferred I was intitled to receive more money as the Utility
worker hourly wage was higher than my Cashiering position, and, (2) Concerning my
termination it was clear that I was terminated for having Phone conversation about the
company's business with a male co-worker, Yoseph Temesgen, but he was retained and
still is/was working until the store relocated somewhere outside the Boston Logan airport
area. Therefore, this complaint was not tirniTbarredTior'faifto'exhaustndministrate

34

*

proceeding. This gender discrimination claim is part of the other gender discrimination in
which I alleged and proved that I was terminated for few rule violation while another co­
worker, Mulugeta Gifaw was tolerated for six company rule vioation but still retained
until he was fired for throwing his hat at his manager, Ibid.

E

The District Court's Dismissal of The Petitioner's Age Discrimination
Claim and the Appeals Court's Affirmance was Erroneous.
The District court like the other claims before him has dismissed the

Petitioner's Age discrimination claim and defendant's argument was not supported by
legal reason but technical. Instead of articulating their reason in discriminating or not,
like the Wage law claim it argued in the proceeding that plaintiff has not the filing of
administrative charge before filing the lawsuit in court. The defendant's argument which
look like true in the face, however, was false. In the record prepared by Massachusetts
Comission Against Discrimination, “MCAD”19 the plaintiffs cause of action was listed
only as creed, sex and disability and “other” See APP. pg, 195.only. Because the
complaint drafted by the commission did not include the word “age” defendant ask the
court to dismiss the complaint and the court did dismissed. Likewise, defendant in

19 Under Massachusetts MCAD practice (or law?) claimant only required to fill by hand a
simple form to identify the complainant but the acyual complaint that the commission will send
to employer is always written by the commission's personnel. Because many people who
brought charge of discrimination are challnging by their opponent, court in massachusetts are
very libral to interpret ambigious word towards the plaintiff because plaintiff was not the one
drafted his complain in the government office. Therefore, the specific cause of action that was
mentioned Age or any other claim had been construed as plaintiff drafted his/her complaint for
~federal/stateeourt-Theplaintiffscomplaint-indicated-at-ARB.-pg.-204_________ __________

35

dismissed. Mass, wage claim also raised similar, if not identical claim alleging plaintiff
has not administrative decision and also ask the court to dismiss the complaint and the
court dismissed.
The district judge who is interested searching fault than facts on the record
dismissed the complaint. The court dismissed the complaint by never look the MCAD
complaint as was written by the commission's personel and by not paying attention to the
right to sue letter by the Massachusetts Attomy General thus whether the law said private
citizens can not bring charge against empoyer and if the AG authorized the plaintiff to
bring private law suit, the court shoule the exhibit and decide this claim to go forword.
This was intentional without a question.

In any case, the plaintiffs lawsuit is in proper setting because plaintiff filed the
wage law claim before the AG office and the right to sue letter was issued for me as
indicated at APP. pg. 231. This meant that private people also can file the suit. This law
suit was probably late when it is viewed from the statute of limitation point of view but
as the Ledbetter Fair Pay Act negate the limitation period, this claim as well as the rest
should be viewed under the new law.

F. OTG's Retaliation Against Petitioner

-The-District-Courtalsoimpmperly granted Defendant's Motion for Summary
Judgment on plaintiffs Retaliation claim by ignoring the various mistreatment the

36

supervisor (Lilly Molla) and the Manager Walid (“William”) Khayat issued two
unwaranted Written Warning that one was false and the other was in violation of the
disability law which was already refuted but the district judge did not indicate whether he
rejected such unwaranted letter except saying “Ms. Mekonnen's signature does not
appear on in this written warning” See, APP.. pg. B31, No , 2% Because unwarranted
written warning can constitute adverse action, See, McKenzie v. Potterzie, CIV. A.0210727-DPW, 2004 WL 2004)1932766 (D. Maass.) The case cited her is the same case
defense counsel used in opposing Appellant's brief at the courts of appeal and yet the
judge chose to ignore that the unwarranted written warning to constitute adverse action.

Couple with this scenario and the fact that plaintiffs various mistreatment such
as not permitting me to take my lunch break until one or one and half hour before my
shift ended, refused me to assign replacement someone until I go and back to the
woman's room, stealing my (and other cashier's tip) and accusing me or every trivial issue
which all constitute retaliation as retaliation is construed very broadly according to this
previous decisions.

Therefore, defendant's position that plaintiffs retaliatory termination can not be
said without discriminatory animus. If an employer prohibit the taking of break byan
employee within reasonable time but instead forced to take 1 or lA before my shift ended
is a punishment and no reasonable person can't said it is not punishment.

37

(G) Blue Law MGL c.136 sec. (Count 5(2)
This was the claim raised by petitioner to get the proper Sunday premium payment
but defendant argued that a private party can not brought charge against OTG
Management. Defendant also argued that the claim is closed by statute of limitation. The
defendant's argument has no merit because plaintiff properly received the right to sue
letter by the Massachusetts Wage and hour law office of the AG office of
Massachusettess. See, APP. pg. D231. In short, the Ledbetter Act of2009 will not allow
this to be dismissed and appropriate should be compensated.

Because plaintiff properly exhausted administrative proceeding and recievd the
Right to see letter, I have agreed

(a) to bring lawsuit per My Sunday Premium pay

Claim as per Mass. Gen. Law ch. 136 sec. §6(50) as stated in my Amended Complaint
and Jury Trial.”See APP. pg. D204, Count 5(2) of page 8; and (b) Even the court
should not have dismissed the plaintiffs Religious and Retaliatory Termination claim
because the claim also involve compensation for working on Sundays. In relation to my
religious discrimination claim, plaintiff (despite defendant's false claim that I have not
worked a single Sunday from employment to termination) I have proved that I have work
Sundays but the court dismissed the claim by statute of limitation by ignoring the Fair Pay
Act Of 2009 that eliminated the affirmative defense of statute of limitation whenever
compensation is involved. See the plaintiffs Sunday work that the court admitted that I
have worked on Sundays. See Memo. & of Order, at APP. page B30. Ifl.

38

As to plaintiffs forced Sunday work, the court recognized that plaintiff worked
some Sundays in 2007, even though it downplayed in mentioning the 12 Sundays
plaintiff worked in 2008 despite all the irrefutable fact were before him. As mentioned,
Plaintiff not only indicated that I was forced to work on Sundays in 2007, but I also
worked 12 Sundays in 2008 as indicated at APP. pg. D92-103. Armed with these
evidences and other, plaintiff was attempted to litigate further to the point of wining the
case but required by (judge Joseph L. Tauro), to discuss settlement and met with the
defendant under the (supervision?) of a Magistrate judge (App. pg B13, dockt no.19/24)
but the effort was not a success.
Subsequently the court again referred the case to another Law Firm, called Foley
& Lardner, LLP.

in which plaintiffs temporarily appointed counsel for settlement

purpose had asked defendant to offer reasonable settlement amount but agree as
Defendant were offering unreasonable amount with a hope that it will prevail on the
plaintiffs Sunday Premium claim.

See APP. pg. D232-233. 19 The district court

dismissed the claim under F.R. Civ. P 12(b)(6) even though he knows full well it was not
subjected for dismissal by statute of limitation under the Ledbetter Far Pay Act. Lastly
while my former husband was hospitalized and when I have no one to assist me, another
lawyer from a different Law firm had represented me but I terminated him for filing
stipulated motion to dismiss the complaint because he reached settlement agreement with
defendant without my consent or approval and signature, and therefore, I motioned the
court to disapprove the settlement offer excused behind the scene because litigating

39

;

*
.‘A

CONCLUSION

V

For the above stated reasons, the court should grant the petition for writ of
t

certiorari. Petitioner had proved my case no matter how the lower courts had adversly
decided on this case. Therefore, the petition not only be granted for the sake of setting
binding precedents but because many employees are victim of Mystery Shoppers who
come to the place of business seeking only fault on employees and write subjective
report who even are not identified themselves to testify on what they wrote about.

Respectively Submitted
Dated

\

y

a Mekonnen, Pro Se
106 West Concord Street, Apt. No.l
Boston, MA. 02118
857- 318- 9697 /Msg thru, Daughter/
011 -251-9112-53-598 Ethiopia (Temporary)

£

